No. 20-994
IN THE SUPREME COURT OF THE UNITED STATES
_________________
VOLKSWAGEN GROUP OF AMERICA, INC., ET AL.,
PETITIONERS
v.
THE ENVIRONMENTAL PROTECTION COMMISSION OF
HILLSBOROUGH COUNTY, FLORIDA, ET AL.
_______________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE via first-class mail, postage
prepaid, this 27th day of September 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,984 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 27, 2021

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 27, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0994
VOLKSWAGON GROUPE OF AMERICA, INC., ET
AL.
THE ENVIRONMENTAL PROTECTION
COMMISSION OF HILLSBOROUGH COUNTY FL, ET
AL

MATTHEW ALLEN FITZGERALD
MCGUIREWOODS LLP
800 EAST CANAL STREET
RICHMOND, VA 23219
804-775-4716
MFITZGERALD@MCGUIREWOODS.COM
ROBERT J. GIUFFRA
SULLIVAN & CROMWELL LLP
125 BROAD STREET
NEW YORK , NY 10004
212-558-4000
GIUFFRAR@SULLCROM.COM
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
CPHILLIPS@SIDLEY.COM
NICOLE A. SAHARSKY
MAYER BROWN LLP
1999 K STREET NW
WASHINGTON, DC 20006
202-263-3052
NSAHARSKY@MAYERBROWN.COM

MATTHEW D. SLATER
CLEARY GOTTLIEB STEEN & HAMILTON LLP
2112 PENNSYLVANIA AVENUE, NW
SUITE 1000
WASHINGTON, DC 20037
202-974-1500
MSLATER@CGSH.COM
PETER K. STRIS
STRIS & MAHER LLP
777 S. FIGUEROA ST.
SUITE 3850
LOS ANGELES, CA 90017
213-995-6800
PSTRIS@STRIS.COM
ELISABETH SUSAN THEODORE
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5891
ELISABETH.THEODORE@ARNOLDPORTER.C
OM

